Of fice of the Inspector General
T e n n e s s e e Va l l e y A u t h o r i t y




                 Semiannual Report
                           April 1 ~ September 30, 2005
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and inspections.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse;
(2) violations of laws, rules, or
regulations; and (3) inefficiencies in
TVA programs and operations.
                                   Tennessee Valley Authority
                                  Office of the Inspector General



          Message From the Inspector General

         Visitors to the Inspector General's office here at TVA must walk past a large picture of the Fontana
Hydro Plant. The inscription at Fontana, etched 63 years ago, reads, “1942 - Built for the people of the United
States of America.” This simple phrase epitomizes the vision that gave birth to TVA. TVA was not to be merely
another well-intentioned government program. The focus was not bricks and mortar. The focus was the
American people. Whether it was power production, navigation, flood control, malaria prevention, reforestation,
or erosion control, this New Deal innovation was about making life better in the Tennessee Valley.

         Today, TVA has many stakeholders, but ultimately it belongs to the people. The return on the
investment made by the American people in TVA continues to yield readily observable benefits. The present day
stewards of TVA are entrusted with continuing the legacy of public benefit and accountability. The OIG is one of
those stewards responsible for identifying fraud, waste, and abuse, and promoting economy and efficiency
through our audits, inspections, and investigations. Our work adds an additional level of transparency to TVA.
The ultimate result is a more efficient, productive, and accountable organization.

          With issuance of this semiannual report to Congress, we are for the first time also publishing some audit
and inspection reports on our website. My belief is that making these audits and inspections available is
consistent with TVA’s obligation to be accountable to the public. In the future, we will post selected audit and
inspection reports on our website as they are completed rather than releasing them with the semiannual report.
Many of my Inspector General (IG) colleagues who are members of the President’s Council on Integrity and
Efficiency (PCIE) follow this practice as well. There are, of course, audit and inspection reports that cannot be
released; for example, those containing security information or those which if released would put TVA and/or a
contractor at a competitive disadvantage.

          Finally, I am pleased the PCIE selected an OIG review team for an Award of Excellence in recognition of
the team’s efforts to help TVA prepare for compliance with the Sarbanes-Oxley Act of 2002. Congress enacted
the Sarbanes-Oxley Act to bring more transparency to corporate financial reporting. The TVA Board and TVA
management continue to demonstrate a commitment to making necessary improvements to comply with both
the spirit and the letter of the Sarbanes-Oxley Act. To assist in this effort by helping management evaluate the
design and operating effectiveness of financial reporting controls, the TVA OIG is performing process control
reviews of most major processes across TVA. The PCIE Award of Excellence recognizes the significance of this
undertaking as being an achievement at the forefront of the IG community.




                                                                                                Richard W. Moore
                                                                                                Inspector General
                                                                                                October 31, 2005
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      4

Special Features                                                                                     8

Audits                                                                                              15

Investigations                                                                                      21

Inspections                                                                                         29

Legislation and Regulations                                                                         32




Appendices                                                                                          34


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          35


Appendix 2 Audit Reports Issued                                                                     36


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   39


Appendix 4 Audit Reports With Corrective Actions Pending                                            41


Appendix 5 Investigative Referrals and Prosecutive Results                                          44




Highlights                                                                                          45




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, investigations, and inspections. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified nearly $14 million in
recoveries, fines/penalties, potential savings, questioned costs, or funds which
could be put to better use, as outlined in the chart below.



                                STATISTICAL HIGHLIGHTS
                      April 1 ~ September 30, 2005
                    Audit Reports Issued                               29
                    Questioned Costs                           $6,422,040
                    Funds Recovered                            $5,015,650
                    Funds Put to Better Use                    $5,634,500
                    Funds Realized by TVA                      $6,001,859
                    Investigations Opened                              84
                    Investigations Closed                              84
                    Fines/Recoveries/Restitution/Savings       $1,923,167
                    Criminal Actions                                    9
                    Administrative Actions (No. of Subjects)           13
                    Inspections Completed                              13



Our 29 audits and 10 other audit-related projects during this reporting period resulted in
significant questioned costs and the identification of areas for improvement. Highlights
include (1) contract audits which identified over $6.4 million in questioned costs and
over $5.6 million in funds which could be put to better use, (2) information technology
(IT) audits which identified needed control improvements, and (3) financial-related and
operational reviews which found most internal controls were adequately designed to
mitigate risks, but identified opportunities to improve control effectiveness. TVA
management used information from our audits to recover or disallow about $5 million
and negotiated about $6 million in contract cost savings.

Investigative highlights include (1) recoveries, projected savings, and fines/penalties of
over $1.9 million; and (2) continued fraud prevention efforts, including fraud risk
assessments, across TVA programs and fraud awareness training. We continued our




page 1                                                             April 1 ~ September 30, 2005
                                                           Executive Summary



participation on interagency task forces and our activities to develop more proactive
investigative initiatives through actions such as data mining, and by working with TVA
management to resolve allegations that did not warrant a full OIG investigation.

Our Inspections unit completed 13 projects which identified over $118,000 in cost
savings and opportunities for improved program operations. Inspections ranged from
reviews of physical and environmental controls to process reviews to a comparison of
vendor and TVA coal weights.




                                                                        Definitions
                                                            Q u e s t i o n e d C o s t s - Costs that
                                                            are unnecessary, unreasonable,
                                                            unsupported, or an alleged
                                                            violation of law, regulation,
                                                            contract, etc.
                                                            U n s u p p o r t e d C o s t s - Questioned
                                                            costs that are not supported by
                                                            adequate documentation.
                                                            F u n d s P u t t o B e t t e r U s e - Funds
                                                            that could be used more
                                                            efficiently by implementing
                                                            recommended actions.
                                                            D i s a l l o w e d C o s t s - Costs that
                                                            management agrees should not
                                                            be charged to TVA.




TVA Office of the Inspector General                                                      page 2
T VA P r o f i l e



TVA was created during 1933. President Franklin Roosevelt asked Congress to create
“a corporation clothed with the power of government but possessed of the flexibility
             and initiative of a private enterprise.” On May 18, 1933, Congress passed
             the TVA Act, creating TVA as a federal corporation. TVA’s threefold
             mission includes power production, environmental stewardship, and
             economic development.

             Today, TVA is the nation’s largest public power company. TVA’s power
             facilities include 11 fossil plants, 29 hydroelectric dams, 3 nuclear plants,
             6 combustion turbine plants, a pumped-storage facility, and 17,000 miles
of transmission lines. TVA also produces energy from three renewable sources––sun,
wind, and methane gas from waste. The TVA service area covers 80,000 square miles
in the Southeastern United States, including almost all of Tennessee and parts of
Mississippi, Kentucky, Alabama, Georgia, North Carolina, and Virginia. By providing
wholesale power to 158 municipal and cooperative power distributors, and by directly
serving 62 large industries and government installations in the Valley, TVA supplies the
energy needs of 8.5 million people.

As a regional development agency, TVA not only supplies affordable, reliable power, but
also supports a thriving river system and stimulates sustainable economic development
in the public interest. TVA manages the nation’s fifth largest river system. TVA dams
are part of a totally integrated resource management system for a 41,000-square-mile
watershed where each dam operates in relationship to the others for multiple purposes
and public benefits, including flood control, maintaining navigation, providing
recreational opportunities, and protecting water quality.

TVA contributes to the Valley economy chiefly by keeping power rates competitive. This
helps attract and retain industries that provide quality jobs in the region. TVA also helps
communities promote sustainable economic development by providing assistance in job
creation and retention and productivity improvements via capital investment, support of
business incubators, specialized technical services and advice, and recruitment for new
and existing industries.




page 3                                                           April 1 ~ September 30, 2005
                                       Office of the Inspector General



Office Authority

Created by the TVA Board of Directors during 1985, the TVA OIG became statutory
under the IG Act Amendments of 1988. The authority to appoint the TVA IG was
transferred to the President in November 2000 by Public Law No. 106-422. The IG is
responsible for conducting audits and investigations relating to TVA programs and
operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board. The IG’s authority includes
conducting audits or investigations the IG deems necessary or desirable, issuing
subpoenas, administering oaths, and granting confidentiality to individuals who provide
information to the OIG.


Organization

The OIG’s primary location is in the TVA headquarters in Knoxville, Tennessee. To
obtain broader coverage throughout the Valley, the OIG also has an Inspections unit
located in Chattanooga, Tennessee, and Investigations has offices at the Browns Ferry
Nuclear Plant (BFN) in Alabama, in Mayfield, Kentucky, and in Chattanooga. The OIG
consists of three primary components: Audits, Investigations, and Inspections.




TVA Office of the Inspector General                                                 page 4
Office of the Inspector General



AUDITS AND INSPECTIONS

             Audit Operations (AO) conducts, and/or supervises, comprehensive
             financial and performance audits of TVA programs and operations. Based
             upon the results of such audits, AO makes recommendations to ensure that
             program objectives and operational functions are achieved effectively and
             efficiently. AO develops an annual audit plan to effectively allocate audit
             resources. The audit plan addresses those issues, programs, operations,
             and activities that hold the greatest exposure for TVA to significant risks
and/or vulnerabilities.

AO consists of three departments––Contract Audits, Financial/Operational Audits, and
IT Audits.

 Contract Audits has lead responsibility for contract compliance and preaward audits.

   In addition, this group performs reviews of TVA contracting processes and provides
   claims assistance and litigation support.

 Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial

   statement audits performed by TVA’s external auditor; (2) reviews of TVA’s internal
   controls related to financial reporting, operational efficiency, and compliance with
   laws and regulations; and (3) operational reviews to assess the results and economy
   and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.




page 5                                                            April 1 ~ September 30, 2005
                                        Office of the Inspector General



The Inspections unit, which is staffed by auditors, was formed at
the beginning of fiscal year (FY) 2004. Inspections provides
flexibility to conduct limited scope policy and program evaluations
to promote economy and efficiency in the management and
administration of TVA programs. In accordance with the Quality
Standards for Inspections, the objectives of our Inspections unit
include providing a source of factual and analytical information,
monitoring compliance, measuring performance, assessing the
efficiency and effectiveness of operations, and/or conducting
inquiries into allegations of fraud, waste, abuse, and mismanagement.

INVESTIGATIVE OPERATIONS

Investigative Operations (IO) conducts and coordinates investigative activity related to
fraud, waste, and abuse in TVA programs and operations. The activities investigated
include possible wrongdoing by contractors, employees, economic development loan
recipients, and others. IO maintains liaisons with federal and state prosecutors and
reports to the Department of Justice whenever the OIG has reasonable grounds to
believe there has been a violation of federal criminal law. IO works with other investiga-
tive agencies and organizations on special projects and assignments,
including interagency law enforcement task forces on
terrorism, the environment, and health care.




TVA Office of the Inspector General                                                 page 6
Office of the Inspector General




                                                       Inspector General




                            Legal Counsel




                                                                                                             Assistant Inspector
              Assistant Inspector
                                                                       Assistant Inspector                         General
                    General
                                                         Deputy              General                          (Administration &
                   (Audits &                            Assistant        (Investigations)                       Government
                 Inspections)                           Inspector                                                Relations)
                                                         General
                                                      (Inspections)
                            Contract Audits
                                                                                     Investigations                          Human
                              Manager
 Audit Quality                                                                          Manager                             Resources
  Manager                                                                                                                    Manager
                               Financial/
                              Operational              Inspections
                                                         Manager                     Investigations
                            Audits Manager                                                                                    Media
                                                                                        Manager
                                                                                                                             Relations
                              Information
                              Technology
                            Audits Manager
                                                        Contacts

Inspector General                                                          Contract Audits Manager
Richard W. Moore . . . . . . . . . . .(865) 632-4120                       David P. Wheeler . . . . . . . . . . . .(865) 632-4770

Legal Counsel                                                              Financial/Operational Audits Manager
Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197                  Louise B. Beck . . . . . . . . . . . . . .(865) 632-2622

Assistant Inspector General (Audits &                                      Information Technology Audits Manager
Inspections)                                                               Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730
Ben R. Wagner . . . . . . . . . . . . . .(865) 632-2272
                                                                           Inspections Manager
Deputy Assistant Inspector General                                         R. Darryl Bryant . . . . . . . . . . . . .(423) 751-4415
(Inspections)
Greg C. Jaynes . . . . . . . . . . . . . .(423) 751-7821                   Investigations Manager
                                                                           Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584
Assistant Inspector General (Investigations)
Charles A. Kandt . . . . . . . . . . . .(865) 632-7720                     Investigations Manager
                                                                           C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
Assistant Inspector General (Administration
& Government Relations)                                                    Human Resources Manager
Ronald Wise . . . . . . . . . . . . . . . .(865) 632-4752                  Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718

Audit Quality Manager                                                      OIG Media Relations
Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-3891               Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505




                                     OIG website: http://oig.tva.gov


page 7                                                                                       April 1 ~ September 30, 2005
                                                                               Special Features



OIG Review Team Receives PCIE Award for Excellence

The PCIE selected an OIG review team for an Award of Excellence in recognition of the
team’s efforts to help TVA prepare for compliance with the Sarbanes-Oxley Act of 2002.
An Award of Excellence is given for unusual or distinguished achievements that are at
the forefront of the IG community.

Congress enacted the Sarbanes-
Oxley Act in response to a series of
corporate scandals. The Act is
intended to make corporate
accounting and reporting more
transparent; make executives              Pictured above from left to right: (back row) Richard Moore, Greg Stinson, Rick Taylor, Paul
                                          Ivie, Sylvia Whitehouse, Greg Jaynes, Andrea Williams, Ben Wagner, Cheryl Liles; (first row)
accountable by giving them personal          Mike Blair, Sharon Bates, Karla McCamy, Nikolaus Jordan, Lisa Hammer, Louise Beck,
                                           Melissa Neusel, Amy Rush, Phyllis Palmer, Jill Matthews, Janet Previtera, Kristi Reynolds,
                                                                                  Betty Spence
responsibility for financial statements
and financial reporting controls; and enhance efforts to make sure appropriate controls
are in place to ensure accuracy in financial reports used by investors and stakeholders.

Under this law, corporate management is responsible for establishing, validating, and
monitoring effective financial reporting controls. Due to congressional action regarding
the jurisdiction of the Securities and Exchange Commission (SEC) over TVA, TVA will be
subject to some Sarbanes-Oxley requirements. Among other things, TVA will be
required to assess and file a report with the SEC on its internal control over financial
reporting. To meet this requirement, TVA management identified about 80 business
processes and over 30 systems throughout the company that impact financial
reporting. TVA management is currently documenting and assessing the design and
operating effectiveness of internal controls.

The OIG began immediately working collaboratively with TVA management to address
this new requirement by providing information and documentation from prior audits as a
starting point in identifying controls. In addition, the OIG developed an action plan to
perform process-control reviews to assist TVA management in its evaluation of the




TVA Office of the Inspector General                                                                           page 8
Special Features



design and operating effectiveness of financial reporting controls. The OIG Sarbanes-
Oxley Review Team has completed a number of these reviews across several business
processes at TVA. The results from this collaborative effort have been significant and
wide-ranging in scope, subject matter, and outcome, including raising the level of
awareness of the purpose and need for internal controls, as well as improving those
controls.

The general process areas being reviewed by the OIG include revenues, billings, fixed
assets, fuel and purchased power, power trading, treasury and corporate credit,
procurement, inventory management, payroll, and information systems management.
Identified areas for improvement in the design and operating effectiveness of controls
include (1) enhancing policy and procedures related to payroll processing, inventory
management, and accounts payable; (2) tightening controls related to system access
and change management; and (3) tightening controls related to bulk power trading and
managing direct charge material at the BFN Unit 1. To make the results more
user-friendly, we also have developed a standardized report format which includes a
chart which rates each internal control and provides suggested remediation where
necessary. The scope of this project will eventually encompass most major processes
across TVA, and the Team continues to work with TVA’s process owners to complete
the control reviews by identifying needed improvements in the design, documentation,
and/or operating effectiveness of control activities in these process areas.


TVA Responds to Diverse Challenges

As TVA faces fundamental changes to its business environment due to evolving
competition in the electric utility industry, it is responding to challenges in a number of
areas. These areas include (1) competitive rates, (2) operational excellence,
(3) environmental compliance, and (4) corporate responsibility. OIG audit and
investigative work contributes to TVA’s efforts to meet these challenges.




page 9                                                           April 1 ~ September 30, 2005
                                                                 Special Features



COMPETITIVE RATES

TVA management has indicated it believes competition for TVA and more choices for its
customers will likely be introduced in the Tennessee Valley in the future, and increased
competition will significantly impact how TVA finances and carries out its diverse
mission. When its captive customer base is freed to purchase power elsewhere, TVA’s
revenue streams will be less certain even as TVA encounters increased pressures to
produce power at competitive rates to retain customers.

Two key efforts in maintaining competitive rates are controlling operating and
maintenance costs and debt reduction. Controlling costs is a challenge when TVA is
faced with increases in fuel, purchased power, and other costs. However, TVA is
seeking maximum efficiency from its current generating units and is planning to bring
more low cost nuclear generation on line which will reduce TVA’s
dependence on higher-priced fuel and purchased power. TVA also
plans to conduct ongoing reviews of its costs and efficiencies and
benchmark its activities and is urging every employee to take a role
in controlling costs.

TVA’s strategic plan calls for paying down its debt by $3 to $5 billion over the next 10 to
12 years. However, with competition on the horizon, TVA is looking at accomplishing
debt reduction in an even shorter time frame. Reductions in debt will decrease interest
expense and provide TVA greater financial flexibility in a more uncertain market.

The OIG supports TVA’s cost saving efforts through (1) performing economy and
efficiency reviews of TVA operations and programs, (2) working closely with TVA’s
Procurement organization to identify cost savings through preaward contract audits and
contract compliance audits, (3) investigating fraud allegations and proactively seeking
out fraud, and (4) assisting TVA organizations to conduct fraud assessments to improve
their antifraud processes and internal controls related to the prevention, identification,
and detection of fraud. Over the last five years, OIG audits and inspections have
identified opportunities for cost savings of over $296 million, of which TVA management
has agreed to approximately $210 million, or about $42 million per year. Separately,



TVA Office of the Inspector General                                                  page 10
Special Features



Investigations has annually identified on average over $4.2 million in savings and
recoveries.


OPERATIONAL EXCELLENCE

In addition to providing competitive rates, TVA has to meet growing generation and
transmission demands with a high degree of reliability. Also, as a part of the nation’s
critical infrastructure, it must ensure the security of its physical assets and information
systems.

TVA faces increased demand with aging generation assets. In addition, although TVA
has over 31,000 megawatts of capacity, it is a net purchaser of power, purchasing
more power from other generators than it sells into the off-system market, and these
costs have been increasing. TVA installed additional combustion turbines to generate
peaking power, but their cost effectiveness is dependent on gas prices which have
                    gone up. In response to these challenges, TVA (1) has improved
                    the reliability of its fossil system, reducing unplanned outages and
                    load reductions; (2) has undertaken the modernization of the power
                    production equipment at its major hydro facilities; and (3) is working
                    to bring BFN Unit 1 back on line in 2007, adding an additional
                    1,280 MW of base-load capacity.

                    TVA is also facing increasing demand on its transmission system.
                    TVA’s transmission system was designed to serve native load and
                    sufficient interchange capability to ensure regional reliability, not to
                    accommodate the much larger evolving interregional electricity
                    markets. Yet for the sixth year in a row, TVA provided transmission
system reliability of 99.999 percent. TVA has built over 800 miles of line in the last
eight years and is planning on building additional lines, substations, and a new
interconnection. It has also signed a Joint Reliability Coordination Agreement to
actively manage reliability of seams between the wholesale electricity markets of the
signing parties.




page 11                                                           April 1 ~ September 30, 2005
                                                                 Special Features



The OIG conducts audits and inspections to identify opportunities to improve the
effectiveness, efficiency, and controls of TVA’s programs and processes. In the past
five years, these reviews have addressed such topics as data reliability and integrity in
the energy trading decision support model, watershed revenue collection processes,
the coal procurement process, the dam safety inspection process, controls and
accuracy of the Transmission and Energy Scheduler System, the capital project
justification process, and TVA’s enterprise-wide risk management program. Security of
TVA facilities and systems has also received significant attention, including reviews of
nuclear and non-nuclear physical security, qualifications of nuclear security personnel,
participation with TVA staff and outside consultants in an IT security assessment
program, and reviews of logical and physical controls and continuity plans for specific
critical systems and IT infrastructure. The OIG also participates in other activities to
stay abreast of operational issues and contribute to TVA efforts. These include
participation on TVA’s Enterprise Risk Council and serving in an advisory capacity on
TVA task forces and pre-implementation teams.


ENVIRONMENTAL COMPLIANCE

TVA must comply with environmental laws and regulations related to air quality, water
quality, and solid and hazardous waste handling and disposal. Of particular concern
and impact are Environmental Protection Agency standards for outdoor pollutants,
particularly sulfur dioxide (SO2) and nitrogen oxide (NOx), requiring TVA to reduce such
emissions.

TVA has instituted an aggressive emission-control program. Among other activities,
TVA has installed selective catalytic reduction equipment on 57 percent of its coal-fired
generation capacity to control NOx and scrubbers on 30 percent of its coal-fired
capacity to control SO2. With the next decade, TVA plans to spend $5.7 billion on air
quality improvements. TVA has stated, moreover, that it believes even more stringent
environmental regulations and therefore higher compliance costs are likely in the future.




TVA Office of the Inspector General                                                  page 12
Special Features



In December 2004, 15 new wind turbines were added to the TVA wind site on Buffalo
Mountain near Oak Ridge, Tennessee. These turbines create no air pollution and, if
                               sited properly, have minimal environmental impact. TVA is
                               also in the process of modifying Unit 1 at BFN to bring it
                               back on line. This will allow TVA to meet future demand
                               without increasing air emissions.

                               OIG environment-related audit work has focused primarily
                               on operational reviews of TVA’s environmental audit
                               program and polychlorinated biphenyl remediation efforts.
                               However, we continually monitor environmental issues
facing TVA and assess the associated risks in order to determine whether additional
reviews are appropriate. We also provide investigative support to the Environmental
Crimes Joint Task Force in the Eastern District of Tennessee. Task force cases over the
last several years have involved problems such as Clean Water Act violations, illegal
storage of hazardous waste, improper use of pesticides, and illegal dumping.


CORPORATE RESPONSIBILITY

Corporate failures and scandals such as Enron and WorldCom have caused
companies, including TVA, to come under increased scrutiny regarding corporate
governance practices. TVA needs to ensure the highest integrity in its financial and
performance reporting, ensuring full disclosure to stakeholders and promoting integrity
at all levels of the agency.

Recent legislation has affected TVA in these areas and in its governance structure. TVA
will be subject to SEC reporting requirements, including Sarbanes-Oxley internal control
reporting. In addition, TVA will soon be led by a nine-member, part-time Board and a
Chief Executive Officer appointed by that Board. The legislation also creates an audit
committee composed solely of Board members independent of management who will
(1) recommend, in conjunction with the IG, an external auditor to the Board, (2) receive




page 13                                                            April 1 ~ September 30, 2005
                                                                Special Features



and review reports from the external auditor and the IG, and (3) make such
recommendations to the Board as it deems necessary.

TVA has expressed a commitment to conducting its business in a manner that retains
the continued confidence and support of its investors, customers, and other
stakeholders. Toward this end, it has developed a corporate accountability and
disclosure plan, as well as adopting a disclosure control policy, a disclosure and
financial ethics code, and an information certification policy. TVA is also in the process
of strengthening its internal control design and documentation for its business
processes, preparatory to Sarbanes-Oxley reporting.

The OIG is responsible for the technical contract management and funding for TVA’s
external audit and for assuring the work of the external auditors complies with
Government Auditing Standards. To meet the latter responsibility, we perform
concurrent reviews of the external auditor’s annual audit of TVA’s financial statements
and their reviews of TVA quarterly financial results. We participate in key meetings with
the external auditor and TVA management, review the external auditor’s workpapers,
review the independence of the auditor, and perform supplemental tests, as needed, to
assess the overall quality of the work. We have also taken an active role in support of
TVA’s implementation of the Sarbanes-Oxley Act, including its Section 404 compliance
initiative. We serve in an advisory role on TVA’s Disclosure Control Committee and have
advised TVA’s Board on topics such as Sarbanes-Oxley implementation and TVA risk
management policy issues. We are looking forward to meeting with the new TVA Board
and audit committee when they are in place and to continuing our efforts in
support of TVA’s governance responsibilities.




TVA Office of the Inspector General                                                  page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 29 audits which identified
over $6.4 million in questioned costs and over $5.6 million in funds which could be put
to better use. We also identified numerous opportunities for TVA to improve program
operations. Our audits included (1) pre- and postaward contract audits, (2) financial-
related audits, (3) IT audits, and (4) operational audits.


PREAWARD CONTRACT AUDITS

To support TVA management in negotiating procurement actions, we completed four
preaward audits that identified $4.4 million in potential savings opportunities. During
this reporting period, TVA management successfully negotiated $6 million in savings as
a result of audits issued during this and previous reporting periods. Highlights of two of
the preaward audits where management has decided to proceed with a contract
follow.

 We reviewed the cost proposals submitted by two contractors for providing Fossil &

   Hydro plant maintenance and modification services under two separate contracts.
   We determined one contractor’s proposal was fairly stated. The second
   contractor’s proposal was fairly stated with the possible exception of a proposed
   billing category for nonmanual employees who receive union benefits instead of
   nonmanual benefits. We estimated the contractor’s proposal would result in TVA
   paying an extra $400,000 over the four-year extension period than it would pay if the
   employees were classified and paid in accordance with TVA’s craft labor agreement.
   TVA management subsequently decided the contractor’s proposed labor
   classifications were proper.




page 15                                                         April 1 ~ September 30, 2005
                                                                                      Audits



 We reviewed the cost components of a contractor’s fixed price proposal for

   designing and installing a hydrated lime injection system at a TVA fossil plant.
   Although we determined the pricing methodology used by the contractor was rea-
   sonable for pricing future projects, we provided information on certain cost compo-
   nents of the fixed price that TVA should consider for future projects. Additionally, we
   identified $72,000 in overstated freight costs in the Cumberland Fossil Plant fixed
   price proposal. TVA management is using the information we provided to restructure
   the pending contract.

CONTRACT COMPLIANCE AUDITS

During this reporting period, we completed ten contract compliance audits that
identified over $6.4 million in ineligible and unsupported costs and another $1.2 million
in costs to be avoided. Highlights of some of the more significant audits follow.

 We reviewed $109.8 million in costs paid by TVA to a contractor for providing

   engineering services associated with the restart of BFN Unit 1. We questioned
   $2.5 million, including (1) the contractor’s inclusion of the labor costs of its affiliate
   company in its performance fee base and (2) overcharges for labor and related costs
   and other direct costs. TVA decided to (1) allow the contractor to include the labor
   cost of its affiliate in its performance fee base and (2) recover any remaining costs
   that were not directly billable under the contract.

 We reviewed $104.4 million in costs paid by TVA to a contractor for providing

   construction services for the restart of BFN Unit 1. We found the contractor
   overbilled TVA $1.5 million due to (1) the use of a craft labor category, incentive fee,
   and safety awards not provided for by the contract; (2) wrong indirect cost markups
   and unsupported labor costs; and (3) other miscellaneous overbillings. Additionally,
   we estimated TVA would save $995,000 by disallowing continued use of the
   unauthorized labor classification. TVA subsequently decided to disallow $1,087,914
   of the questioned costs and to discontinue use of the labor classification.




TVA Office of the Inspector General                                                     page 16
Audits



 We determined a contractor had overbilled TVA $563,773 (out of $6.2 million that

   had been billed) for providing welding services for various nuclear projects. The
   overbilling included (1) labor costs due to the contractor’s use of incorrect labor
   rates, misclassifications of personnel, and unsupported labor hours; (2) ineligible or
   unsupported mobilization, travel, and per diem costs; (3) direct-billed overhead labor;
   and (4) duplicate costs. TVA agreed with most of our findings and is working with
   the contractor to resolve the overbillings.

 We determined TVA had been overbilled $103,007 (out of $10.9 million that had

   been billed) for services performed at BFN Unit 1 by a subcontractor. The overbilling
   included (1) unsupported labor hours, (2) ineligible fees that had been applied to
   travel and relocation costs, and (3) ineligible jury duty hours. TVA is assessing our
   recommendations.

 We audited $33.6 million of costs billed to TVA by a contractor for the administration

   of TVA’s dental benefit program. We questioned $381,392, including
   (1) unsupported and duplicate claims, (2) claims paid for ineligible individuals,
   (3) claim payments that exceeded plan limits, and (4) ineligible orthodontic
   benefits. TVA is negotiating resolution of the overbillings with the contractor.

 We reviewed $615.5 million TVA had paid a contractor from 1999 through 2004 for

   providing modification and supplemental maintenance services for TVA’s fossil plants.
   We questioned $833,655, including (1) payroll taxes and General & Administrative
   (G&A) costs where recovery rates for these costs had been applied to non-salary
   costs, (2) additional G&A costs where craft employees had been
   classified as nonmanual craft supervisors, and (3) temporary living allowance
   payments for employees who may not have been eligible to receive the payments
   because they did not provide adequate certifications and documentary evidence of
   permanent residences. TVA is (1) planning to recover any overbilled costs and
   (2) assessing our finding regarding the contractor’s classification of craft employees
   as nonmanual craft supervisors.




page 17                                                          April 1 ~ September 30, 2005
                                                                                  Audits



FINANCIAL-RELATED AUDITS

During the reporting period, we completed eight financial-related audits, including two
audits of TVA’s external auditor’s review of interim financial information for the second
and third quarters of FY 2005. Highlights of the audits follow.

 In support of TVA readiness initiatives for Sarbanes-Oxley Section 404 compliance,

   we completed reviews of the control design and documentation for 15 business
   processes, including Fixed Assets, Fossil Fuel, Bulk Power Trading, Material and
   Supplies Inventory, and Accounts Payable. The results of our reviews were reported
   to the Chief Financial Officer’s organization which is working with the process
   owners to remediate the findings. We are currently developing plans to test
   operating effectiveness of key controls for these processes, beginning in the first
   quarter of FY 2006.

 We determined controls related to the identification and reduction of inventory and

   financial reporting could be improved. Specifically, we determined (1) policy and
   procedure documentation were not complete, (2) business unit reviews for
   surplus/obsolete inventory were not effective, (3) signatory authorization of approval
   by the business units for inventory write-offs was not obtained, (4) inventory
   purchases were made for items held as surplus, and (5) quarterly inventory reserve
   calculations were incorrect, however, corrections were made for quarterly reporting
   accuracy. Management plans to take corrective action.

 We found no instance where TVA’s external auditor’s reviews of TVA interim financial

   information for the second and third quarters of FY 2005 did not comply with
   Government Auditing Standards in all material respects, including required
   communications to appropriate parties.

IT AUDITS

During this reporting period, we completed five audits in the IT environment, including a
review of TVA’s progress in complying with federal security requirements. In this review,
we found TVA’s security program structure is adequate to meet federal




TVA Office of the Inspector General                                                  page 18
Audits



requirements, and TVA is making substantial progress in correcting significant security
deficiencies. The remaining four reviews pertained to (1) a security review of the system
housing TVA IT Security program-related data and (2) internal controls for three
financially significant applications. We found improvements were needed to address
weaknesses in the following areas:

 Logical security controls designed to prevent unauthorized access to system

   programs and data. Various weaknesses related to access management, secure
   communication protocols, security configurations, documentation of various
   procedures, documentation of spreadsheet input reviews, direct
   data change approval documentation, and lack of sensitive
   information and/or login banners.

 Physical controls designed to prevent unauthorized access to IT

   resources. The weakness related to the physical protection of
   servers at a vendor hosting one of TVA’s financially significant
   systems.

 General controls designed to ensure ongoing operations. Weaknesses related to

   development of contingency plans and documentation and testing of disaster
   recovery plans.


TVA management agreed with our findings and either has implemented or is in the
process of implementing corrective actions. Some of the corrective actions to address
our findings are part of an ongoing agency-wide effort to improve security controls in
TVA’s existing IT infrastructure.


OPERATIONAL AUDITS

TVA’S CORPORATE CONTRIBUTION PROGRAM

We determined TVA’s contributions totaled $1.261 million and $1.646 million during
FYs 2003 and 2004, respectively. TVA’s Corporate Contributions organization
administered about 51 percent of the contributions in FY 2003 and 36 percent in




page 19                                                         April 1 ~ September 30, 2005
                                                                               Audits



FY 2004; other TVA organizations administered the remaining contributions. In
reviewing a sample of contribution transactions, we noted (1) the Contributions
Committee did not review numerous transactions as required by policy and (2) several
transactions, including $160,580 in purchasing card payments that appeared to be
contributions, were charged to incorrect cost classifications. Also, TVA’s Contribution
Tracking System is not reconciled and may not reflect all TVA contributions.
Management agreed with the findings and has taken or plans to take appropriate
corrective actions.

AGREED-UPON PROCEDURES FOR GREEN PRICING ACCREDITATION PROGRAM

We completed agreed-upon procedures to assist the Center for Resource Solutions
(CRS) in determining TVA’s compliance with the annual reporting requirements of CRS’
Green Pricing Accreditation Program for the year ended December 31, 2004. The
required information on TVA’s renewable energy initiative, “Green Power Switch®,” was
provided to CRS.

energy right® PROGRAM PAYMENTS

We determined market value payments (MVPs) to distributors for installed water heaters
and heat pumps were generally applied correctly and total invoice amounts were
generally accurate, including adjustments to applicable invoices. However, (1) the
energy right® Information System does not provide the means to document and track
adjustments, (2) some MVPs were paid without complete and/or accurate
information, (3) no verification occurred to ensure MVPs were made to
distributors as approved by Customer Service & Marketing district
specialists, and (4) distributors’ noncompliance with certain energy right®
program process/documentation requirements increased TVA’s financial
risks. Management agreed with the findings and is taking corrective action.




TVA Office of the Inspector General                                               page 20
Investigations



Summary of Representative Investigations

During the past six months, we closed 84 investigations based, in part, on allegations
and concerns received from ratepayers, TVA management and employees, and OIG
auditors. Our investigations, including task force projects, resulted in (1) over
$1.9 million in recoveries, projected savings, and fines/penalties; (2) four subjects
indicted; and (3) five subjects convicted.

Our investigative activities are designed to prevent and detect fraud, waste, and abuse.
While our investigations in the past have largely been reactive, we are implementing
programs to become more proactive. Our proactive efforts include (1) placing an
additional emphasis on testing for fraud during audits and having auditors make
referrals to Investigations, (2) devoting one employee to full-time data mining to look for
anomalies and fraud indicators in TVA data sets, (3) working with TVA management to
conduct fraud risk assessments, (4) assigning OIG special agents to be responsible for
specific TVA plant sites and develop relationships with the people there, and
(5) developing an Intelligence Unit to look for trends or patterns which might indicate
fraud. In this connection, we are working with TVA management to ensure that
allegations which do not rise to the level of warranting an OIG investigation are
appropriately considered and acted upon.

We also recognize the importance of sharing investigative resources and information
with other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this period, we continued to provide
investigative resources to the Environmental Crimes Joint Task Force and a Health Care
Task Force, sponsored by the United States Attorney for the Eastern District of
Tennessee, and the Joint Terrorism Task Force, led by the Federal Bureau of
Investigation, Knoxville Field Division.




page 21                                                          April 1 ~ September 30, 2005
                                                                     Investigations



Below we discuss illustrative investigations and our program for handling allegations of
employee misconduct. Because our mission includes preventing fraud as well as
detecting it, however, first we will discuss our proactive efforts in fraud risk assessments
and fraud awareness training.


FRAUD RISK ASSESSMENTS AND FRAUD AWARENESS TRAINING

Due to changes in the law, TVA will be subject to certain provisions of the Sarbanes-
Oxley Act. Under Sarbanes-Oxley and as recommended by the Committee on
Sponsoring Organizations (COSO), management is responsible for establishing,
validating, and monitoring effective internal controls over fraud. The elements of a
strong program to detect and deter fraud include assessments to identify fraud risks
and controls which mitigate those risks, evaluations of the effectiveness of those
controls, and addressing residual risks.

The OIG, working with TVA management, has undertaken a fraud risk assessment
initiative throughout TVA. These fraud risk assessments are intended to identify
(1) types of frauds that can occur, (2) the likelihood and significance of fraud occurring,
(3) the controls in place to prevent fraud, and (4) actions needed to improve fraud
prevention controls. We intend for this to be an ongoing process to assist TVA in
effectively ensuring there are adequate antifraud controls across all TVA business units.
Because of the importance of this effort, we are devoting significant investigative
resources to this initiative.

We recognized at the outset of this initiative that management support would be an
essential element for this program to be successful. Employees and managers may
hesitate to provide information because they may think it would reflect negatively on
them or the company, and they may not want attention focused on themselves. That
has not been our experience at TVA. We have experienced nothing but the strongest
support from TVA management in this undertaking, and we have been pleased with the
candor and information provided by TVA employees during the fraud risk assessment
process.




TVA Office of the Inspector General                                                   page 22
Investigations



Fraud risk assessments completed during this reporting period included (1) a BFN
Unit 1 restart contract, (2) the TVA-wide inventory process, (3) fixed assets, and (4) the
Watts Bar Nuclear Plant steam generator replacement project. In each case, based on
an assessment of fraud risk areas and possible fraud schemes, we collaboratively
developed several recommendations to improve internal controls.

In addition to the fraud risk assessments, we conducted eight fraud awareness training
sessions for contract managers in conjunction with Procurement and Audit Operations.
The training, conducted at the request of the Senior Vice President, Procurement,
focused on the common types of contract fraud and indicators of potential problems.


CONTRACT-RELATED INVESTIGATIONS

We identified several possible fraud schemes involving TVA contracts through our
proactive methods as discussed at the beginning of this section. We closed several
investigations leading to possible contract fraud where there was insufficient evidence
to show actual fraud, and several others are ongoing. Results from completed contract
investigations included the following.

 An individual who fraudulently obtained a loan from TVA was previously convicted of

   bank fraud in the United States District Court for the Middle District of Tennessee.
   On August 15, 2005, the individual was sentenced to 18 months’ confinement,
   18 months’ home detention, 3 years’ supervised probation, and was ordered to pay
   full restitution, including $255,366.89 to TVA.

 We previously reported an employee at BFN was indicted for misusing his TVA

   purchasing card by accepting kickbacks to purchase overpriced janitorial supplies in
                    quantities far in excess of what TVA needed. In return, the former
                    employee received about $14,500 in store gift cards and
                    merchandise. An individual responsible for providing the kickbacks
                    has since been convicted of conspiracy. He was sentenced to
                    5 years’ probation, 6 months’ home confinement, and ordered to
                    pay $196,062 in restitution to TVA.




page 23                                                         April 1 ~ September 30, 2005
                                                                    Investigations



 Our investigation raised serious questions about the appropriateness of actions by a

   contractor manager working at a TVA site. The contractor manager (1) promoted a
   woman, with whom he had a dating relationship, to a supervisory position; and
   (2) received and sent inappropriate e-mails. The contractor manager was replaced
   shortly after we issued our investigative report.

 We continued our efforts to review temporary living expenses paid to contractor

   employees. Those expenses are intended to reimburse contractor employees on
   temporary assignment who maintain both a temporary residence and a permanent
   residence located more than a certain distance from the TVA site. To obtain
   temporary living expenses, contractor employees must certify they maintain both a
   permanent and a temporary residence. During this reporting period, we investigated
   a subcontractor who had not obtained the required certifications from its employees.
   TVA subsequently recovered approximately $45,000 paid for employees who had
   not submitted certifications. Our investigation also resulted in improvements to the
   process.

THEFT INVESTIGATIONS

We have the following updates on theft cases previously reported.

 We previously reported a TVA employee had been charged with theft and mail fraud

   in an eleven-count federal indictment. The indictment charged the former employee
   used TVA credit cards to purchase items for personal use, including color televisions,
   storage sheds, and other items. A breakdown in internal controls in that case
   allowed the alleged misuse to continue for several months before it was detected.
   During this reporting period, the former TVA employee pled guilty to mail fraud. The
   former employee admitted using TVA purchasing cards, over nearly a three-year
   period, to obtain personal services and merchandise. As part of the guilty plea, the
   former employee agreed to make restitution to TVA totaling over $86,000. In
   addition, the TVA organization has taken corrective action to prevent any similar
   schemes.




TVA Office of the Inspector General                                              page 24
Investigations



 A TVA employee was previously terminated for having personal travel expenses paid

   by TVA. The former TVA employee entered a pretrial diversion agreement
   subsequent to being charged with theft by a state grand jury. The agreement
   required the former employee to reimburse TVA approximately $4,100 and to avoid
   any additional legal issues for a period of two years.

HEALTH CARE RELATED INVESTIGATIONS

Health care fraud has been identified as a major problem across the country, including
in government programs. TVA operates a self-insured health care plan, and during
          FY 2004 spent roughly $140 million on health care costs. We have found,
          however, that fraud by individual providers is usually spread out among many
          insurance programs, and TVA by itself often does not suffer enough damages
          to warrant a criminal prosecution. Accordingly, we participate on the Health
          Care Task Force for the Eastern District of Tennessee, and we seek other
          opportunities for joint investigations to establish a large enough fraud to
          warrant prosecution. Results during this reporting period included the
          following.

 Our investigations determined two pharmacies submitted duplicate claims to the

   Office of Workers’ Compensation Program when they converted from paper to
   electronic claims. They each reimbursed TVA the overpayment, totaling about
   $50,000.

 Three individuals were sentenced as a result of investigations conducted in

   conjunction with the Health Care Task Force for the Eastern District of Tennessee. In
   one case involving billings for medical services not rendered, two individuals were
   sentenced to prison terms of 34 months and 60 months, followed by 3 years’
   probation, and ordered to make restitution totaling over $1.3 million. In another Task
   Force case involving the unlawful distribution of controlled substances, the final two
   of six defendants were sentenced, respectively, to 18 months’ imprisonment,
   3 years’ probation, and a $1,200 assessment; and 27 months’ imprisonment,
   3 years’ supervised release, and a $100 assessment.




page 25                                                         April 1 ~ September 30, 2005
                                                                     Investigations



ENVIRONMENTAL INVESTIGATIONS

As a result of an investigation conducted in conjunction with the East Tennessee
Environmental Crimes Task Force, two individuals employed by a wastewater treatment
facility pled guilty to state water pollution charges. Both individuals were sentenced to
two years’ probation and fined a total of approximately $2,800.


EMPLOYEE CONDUCT

We evaluate each misconduct allegation we receive to determine if it meets the
threshold to warrant an investigation. We generally investigate potentially criminal
matters or allegations involving senior TVA managers. In other cases, we often decide
it would be more appropriate to refer the matter to the Designated Agency Ethics
Official or an appropriate level of TVA management for corrective action. Factors we
consider in deciding whether to refer a matter to management include the potential
monetary amount involved, the risk to TVA, the nature of corrective action required if
substantiated, and the likelihood that management can resolve the matter. We have
found management to be responsive to referred issues, and we track each referral to
ensure appropriate action is taken. Illustrative investigations and management referrals
are outlined below.

 Our investigations did not substantiate several allegations of reprisal for raising safety

   concerns or providing information to the OIG and Nuclear Regulatory Commission.
   In one of those cases, however, we determined a contractor supervisor made
   comments that could be interpreted as inappropriate. The supervisor was
   counseled.

 Another investigation did not substantiate an allegation that a manager was removed

   from his TVA position because he raised safety concerns. That investigation did,
   however, raise questions about TVA’s personnel action. The issues involving that
   employee subsequently were resolved, and the individual returned to work in
   another TVA organization.




TVA Office of the Inspector General                                                 page 26
Investigations



 Our investigation found a TVA employee used TVA property and equipment in

   connection with his outside business and installed pirated software on TVA
   computer equipment. The employee was suspended for 14 days without pay.

 In response to referrals from this office, management implemented numerous control

   improvements and counseled several individuals. The identified issues being
   corrected included computer misuse, contractor monitoring, and vehicle use.




page 27                                                      April 1 ~ September 30, 2005
                                                                                                                                                      Investigations




                                                                                 Administrative and Disciplinary Actions
                                                                                                T o t al = 6 1


                                                                                                                     O ra l / W ri t t e n
                                                                                      R e e m pl o y m e n t          W a rn i n g s
                                                                                            F l ag g ed                     16%
                                                                                                 3%                                                     Su s p e n s i o n
                                                                                                                                                              2%

                                                                                                                                                    T e rm i n a t i o n
                                                                                                                                                          2%


                                                                                           C o u n s el i n g /
                                                                                           Man ag emen t
                                                                                           T e c h n i qu e s
                                                                                                 77%




                                        Closed Cases by Area
                                              T o t al = 8 4

                                                      H u man
                       A d m i n i s t ra t i o n   R e s o u rc e s
                               20%                      8.5%
                                                                               F o s s i l Po w e r
                                                                                      12%



                  O t h er
                                                                   T V A N u cl ear
                  32%
                                                                       27.5%




                                                                                               Hotline Telephone and E-Mail Concerns
                                                                                                    Reported to OIG Investigations
                                                                                                              T o t al = 5 0


                                                                                                                  An o n y m o u s                          TV A
                                                                    F o rm e r                                         26%                              E m pl o y e e s
                                                             T V A & C o n t ra c t o r                                                                     26%
                                                                  E m pl o y e e s
                                                                      20%




                                                                                      C o n t ra c t o r
                                                                                      E m pl o y e e s                   G e n e ra l P u b l i c
                                                                                           8%                                    20%




TVA Office of the Inspector General                                                                                                                                          page 28
Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources including: (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from an ongoing inspection. During this reporting period, we completed
13 inspections which identified over $118,000 in questioned costs. We also identified
various opportunities for TVA to improve program operations. Highlights of our
inspections follow.


TRAVEL EXPENSE REIMBURSEMENT

At the Chief Financial Officer organization’s request, we assessed the cost effectiveness
of the actual travel expense reimbursement program and the Chief Operating Officer
(COO) flat rate reimbursement program. We determined that the COO flat rate method
cost about $115,000 more than the actual expense reimbursement method during a
three-month period we reviewed. We also identified control weaknesses, including a
lack of system edits to prevent flat rate reimbursements which exceeded the allowable
rate, and numerous instances where employee expenses were reimbursed for
direct-billed hotel expenses under both methods of travel reimbursement. TVA
management is considering appropriate corrective actions.


PHYSICAL AND ENVIRONMENTAL CONTROLS FOR TVA’S DATA CENTERS

We reviewed the physical and environmental controls at two of TVA’s data centers to
determine the adequacy of (1) physical controls to ensure only authorized access to
system resources and (2) environmental controls to appropriately protect computing
assets from hazards. We determined both data centers’ physical access controls and
one data center’s environmental controls need improvement. TVA management agreed
with the findings and initiated or plans to initiate corrective actions needed to implement
our recommendations.




page 29                                                         April 1 ~ September 30, 2005
                                                                         Inspections



BACKUP CONTROLS FOR TVA’S DATA CENTERS

We reviewed controls pertaining to program and data backup storage and retrieval for
TVA’s data centers and the physical controls of an off-site storage facility to determine if
controls surrounding the backup storage and retrieval process were adequate to
ensure ongoing system operation, and if physical and environmental controls were
sufficient to protect the off-site facilities from unauthorized access and environmental
hazards. We determined that both the (1) storage and retrieval process controls and
(2) environmental controls need improvement. Management agreed with our findings
and plans to initiate corrective actions.


WORK MANAGEMENT PROCESS

We assessed the extent COO organizations were complying with the work
management requirements outlined in COO SPP 7.0, COO Work Management. The
work management process includes the “establishment of Program elements required
to manage work in a safe, reliable, environmentally conscious, and efficient manner.” In
general, organizations were complying with the requirement to complete a work
package. However, (1) most work package documentation was not retained,
(2) inconsistencies exist in the development and use of work packages, and (3) multiple
computer applications contribute to inconsistencies. TVA management agreed with our
findings and plans to initiate corrective actions.


TVA’S ETHICS REQUIREMENTS/PRACTICES AND INDUSTRY BEST PRACTICES

We reviewed TVA’s ethics practices and identified industry best practices which TVA
could implement including (1) an ethics committee to oversee the ethics initiative, (2) a
communication strategy that ensures all employees have ethics information, (3) requiring
all employees to complete ethics training, (4) assessing and rewarding ethical conduct,
(5) assessing the extent to which employees accept organizational values and policies,
and (6) communicating to all employees that ethics standards are a high priority with
top management. We provided this information to the President and COO for his
consideration.




TVA Office of the Inspector General                                                 page 30
Inspections



WIDOWS CREEK FOSSIL PLANT COAL RECEIPTS ANALYSIS

We compared invoiced vendor/terminal weights to TVA delivered weights for both
          Widows Creek Fossil Plant rail and barge coal deliveries. We determined
          (1) significant variances between vendor/terminal invoiced weights and TVA
          delivered weights, (2) weights were not recorded for many coal shipments,
          and (3) delivery weight documentation requirements or retention policy did
          not exist. Management agreed with our findings and plans to initiate
          corrective actions. OIG Investigations is reviewing selected trend variances
          to determine if any warrant further inquiry.




page 31                                                     April 1 ~ September 30, 2005
                                               Legislation and Regulations



Under the IG Act of 1978, one of the IG’s responsibilities is to review
legislation and regulations which may have an impact on the economy and
efficiency in the administration of the programs and operations of TVA.
Accordingly, we follow legislative areas of interest pertaining to the IG
community and TVA. The TVA IG, Richard W. Moore, serves on the
Legislation Committee for the PCIE, and we worked with the PCIE to
provide comments on legislation involving the IG community. In the current
reporting period, the TVA OIG followed a number of pieces of proposed legislation
including the following:

H.R. 6 Energy Policy Act of 2005

H.R. 1271 Repealing Provision Relating to Privacy Officers

H.R. 2489 Improving Government Accountability Act

S. 394 Open Government Act of 2005

S. 1181 Amending the Freedom of Information Act

S. 1499 Amending the Federal Power Act




TVA Office of the Inspector General                                            page 32
page 33   April 1 ~ September 30, 2005
     APPENDICES




TVA Office of the Inspector General   page 34
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     32


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                          8-31


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          8-31


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            15-31


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 35                                                                             April 1 ~ September 30, 2005
                                                                                 Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                  QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                        COSTS       COSTS     BETTER USE

CONTRACT

2005-024C
04/21/05         DZNPS - Fossil
                 Maintenance & Supplemental
                 Maintenance Services - Preaward

2005-030C
06/29/05         G-UB-MK’s Proposed Indirect
                 Cost Rates for Extension of Contract -
                 Preaward                                                           $400,000

2004-012C-02
04/25/05         Stone & Webster Construction, Inc. -
                 BFN Unit 1 Restart                   $1,189,621                     995,000

2004-003C-02
05/05/05         Bechtel Power Corporation                2,542,211

2005-042C
06/09/05         Stone & Webster Construction, Inc. -
                 Excess Costs Billed for Super
                 General Foreman Labor Classification      313,921

2005-004C-01
06/21/05         Welding Services, Inc.                    143,588

2005-036C
06/24/05         Nol-Tec Systems, Inc. - Preaward                                     72,000

2005-016C
06/29/05         United States Enrichment Corporation      438,437                   244,000

2005-004C-02
07/07/05         Welding Services, Inc. (Nuclear)          420,185

2005-019C
07/25/05         Stone & Webster Construction, Inc. -
                 Subcontract with Engineered
                 Services, Inc.                            103,007     $99,774

2005-006C-01
07/29/05         Connecticut General Life Insurance
                 Company (CIGNA Dental)                    381,392      40,566

2005-026C
09/12/05         Stone & Webster Construction, Inc. -
                 Subcontract with Shook & Fletcher          56,023

2005-048C
09/21/05         The Wackenhut Corporation - Preaward                              3,923,500

2005-013C
09/27/05         Day & Zimmermann NPS, Inc.                833,655     387,885




TVA Office of the Inspector General                                                     page 36
Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

F I NA N C I A L
2005-037F
05/27/05       Audit of PWC’s Review of TVA’s
               FY 2005 Second Quarter
               Financial Information

2005-032F-01
06/01/05       Controls Over Receiving and
               Inspecting Inventory

2005-023F-01
06/13/05       Controls Over Depreciation Expense
               & Accumulated Depreciation

2005-008F
06/14/05       Verizon Wireless Credits

2005-028F-01
06/15/05       Controls Over Managing Site Material

2005-015F
06/27/05       Controls Over TVA’s Inventory Write-Off

2005-056F
08/22/05       Audit of PWC’s Review of TVA’s
               FY 2005 Third Quarter
               Financial Information


INFORMATION TECHNOLOGY

2005-007T
05/02/05       Contractor Workforce Management
               System

2005-009T
06/30/05       Review of TVA’s Information Factory
               Application, Access, and General
               Controls

2005-012T
06/30/05       Integrated Business System
               Application, Access, and General
               Controls

2005-022T
08/30/05       Security, Test, and Evaluation of the IT
               Security Data System

2005-058T
09/15/05       Federal Information Security
               Management Act Evaluation




page 37                                                              April 1 ~ September 30, 2005
                                                                                                  Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                     QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                           COSTS       COSTS     BETTER USE

PERFORMANCE

2004-058F
04/11/05             TVA’s Corporate Contribution Program

2005-040F
06/30/05             Agreed-Upon Procedures for
                     Green Pricing Accreditation Program

2005-003F
07/19/05             energy right® Program Payments


TOTAL                29                                    $6,422,040*             $528,225           $5,634,500**


* Questioned costs include $438,437 for unreasonable or unnecessary expenditures not recoverable.

** This figure includes $3,923,500 identified in preaward audits of proposals for contracts that were not subsequently
   awarded.




TVA Office of the Inspector General                                                                            page 38
Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                         QUESTIONED COSTS
                                                                 NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period                2                $1,926,884              $52,537

B.   Which were issued during the reporting period                  10                $6,422,040             $528,225

Subtotals of A and B                                                12*             $8,348,924             $580,762

C.   For which a management decision was made during
     the reporting period                                           10**              $7,050,502              $93,103

     (i) Dollar value of disallowed costs                            9                $4,968,981              $46,385

     (ii) Dollar value of costs not disallowed                       7                $2,081,521              $46,718

D.   For which no management decision has been made by
     the end of the reporting period                                 4                $1,298,422             $487,659

E.   For which no management decision was made within
     six months of issuance                                          0                         $0                   $0


* The total number of reports (A+B) differs from the sum of C and D when the same reports contain recommendations
  with and without management decisions.

** The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
   and not disallowed by management.




page 39                                                                              April 1 ~ September 30, 2005
                                                                       Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                              NUMBER   DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period           1         $184,000

B.   Which were issued during the reporting period              5        $5,634,500

Subtotals of A and B                                            6       $5,818,500

C.   For which a management decision was made during
     the reporting period                                       5        $1,895,000

     (i) Dollar value of costs agreed to by management          3        $1,251,000

     (ii) Dollar value of costs not agreed to by management     2         $644,000

D.   For which no management decision has been made by
     the end of the reporting period                            1        $3,923,500

E.   For which no management decision was made within
     six months of issuance                                     0               $0




TVA Office of the Inspector General                                            page 40
Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in two contract compliance audits, three operational audits, four financial
audits, and nine IT audits have not yet been fully implemented; however, all are being implemented in accordance with
currently established milestones.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-074T                Application Review of Pegasys
01/07/02                 This report contained recommendations regarding facility access control. TVA issued a request
                         for proposal for a new access control system in August 2005. A decision on the new system
                         will be made after responses to the proposal are received and evaluated by management.


2002-025T                Security of Windows 2000/Windows XP
08/07/02                 This report contained recommendations to strengthen environmental and logical controls of
                         TVA’s implementation of Windows 2000 and Windows XP. TVA is currently evaluating options
                         for implementation of a login banner for desktops.


2003-004C                A&G Tree Service, Inc.
03/30/04                 A Contracting Officer’s decision was issued in March 2005 that concurred with the audit
                         findings and directed A&G to reimburse TVA for overpayments of $638,542 under a closed
                         contract. During May 2005, TVA stopped A&G from performing work under a subsequent
                         contract and recovered part of TVA’s damages by withholding payment on invoices under the
                         subsequent contract totaling $88,362. A&G has sued TVA under the subsequent contract for
                         the withheld payments but has not yet appealed the Contracting Officer’s decision. A&G has
                         until March 2006 to appeal that decision.

2003-015F                Review of Completed Plant Retirements
07/28/03                 This report contained recommendations to correct completed plant retirement inaccuracies,
                         improve accounting for completed plant retirements, and strengthen management’s controls
                         over retirements processing. TVA management notified the OIG on October 14, 2005, that
                         planned actions had been completed.


2003-024F                Review of TVA’s Accounts Receivable and the Allowance for Doubtful Accounts
11/18/03                 This report contained recommendations to (1) develop, document, and implement guidelines for
                         estimating the allowance for doubtful accounts; (2) ensure reconciliation of the general ledger
                         and subsidiary accounts include documentation of corrections and adjustments made during
                         power and nonpower reconciliations and management review and approval of all nonpower
                         adjusting journal entries; (3) make modifications to the write-off process to ensure invoices are
                         written off in a timely manner; (4) develop and implement procedures to track written off
                         accounts for future collection efforts or business decisions; (5) ensure accounts are written off in
                         accordance with policy; and (6) review and update Accounting Procedure 25 to clarify the
                         criteria for referring past due customers to the General Counsel’s Office. TVA management
                         agreed to implement our recommendations and has transitioned the responsibilities to a new
                         group. Processes and procedures will be evaluated and updated by March 2006, and a new
                         system is planned.


2003-040T                Nuclear Plant IT Security
03/30/04                 This report included recommendations to strengthen logical and physical controls at a nuclear
                         generation facility. TVA management is implementing planned remediation actions that are
                         expected to be completed November 30, 2006.




page 41                                                                                April 1 ~ September 30, 2005
                                                                                            Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION




2003-053F-01        Controls for Generation Data in Operations Data Store System and Web
06/03/04            Based Data Entry Page
                    This report included recommendations to strengthen controls over generation data in the
                    system. TVA management expects to issue a new policy addressing generation data
                    requirements and each organization’s responsibilities by December 2005. Changes to
                    organizations’ policies and procedures and necessary system modifications are expected to be
                    completed by March 2006.


2003-054T           Hydro Plant IT Security
11/13/03            This report included recommendations to strengthen logical, physical, and management
                    controls over IT assets at a hydroelectric facility. TVA management notified the OIG on
                    October 18, 2005, that planned actions had been completed.


2003-056T           Pre-Implementation Review of TVA’s New Fuelworx Application
03/18/04            This report included a recommendation to strengthen user access controls. The
                    recommendation will be addressed as part of a TVA-wide effort that is expected to be
                    completed in December 2006.


2003-067P           TVA’s Compliance With the National Energy Conservation Policy Act
02/02/04            This report included a recommendation to continue to evaluate opportunities to reduce energy
                    consumption including promoting sustainable building design when appropriate. Management
                    plans to implement a new energy process that will address sustainable building design by
                    March 2006.


2004-006F           Public Power Institute
07/13/04            This report included a recommendation that TVA develop improved program performance
                    measures. TVA management notified the OIG on October 17, 2005, that planned actions had
                    been completed.


2004-016T-01        Payroll System Controls
12/07/04            This report included recommendations to strengthen controls over the payroll process and
                    system. TVA management is implementing planned remediation actions which are expected to
                    be completed by December 31, 2005.


2004-028F           Controls Over Short-Term Trading Activities
10/22/04            This report included recommendations to improve the operational effectiveness of certain
                    control activities. TVA management notified the OIG on October 14, 2005, that planned actions
                    had been completed.




TVA Office of the Inspector General                                                                        page 42
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2004-044C      McCartin McAuliffe Mechanical Contractors, Inc.
03/14/05       A Contracting Officer’s Decision was issued in August 2005 which agreed with the audit
               findings. McCartin has 90 days (or until November 4) to appeal the Decision to the TVA
               Contract Board of Appeals. If they do not appeal to the TVA Board of Appeals, they have until
               August 2006 to file in federal court.


2004-051F      Convenience Check Program
01/24/05       This report included recommendations that TVA management institute actions to ensure
               compliance with TVA’s convenience check procedure and accounting procedure. TVA
               management plans to complete actions by November 30, 2005.


2004-059T      Pre-Implementation Review of Security of New Servers for IBS,
11/24/04       Fixed Assets, and BOSS Applications
               This report included recommendations that TVA management take action to improve the
               security of the servers. TVA management is expected to complete planned remediation actions
               by September 30, 2006.


2004-060T      IT Security Review of New Servers for HR and PR Applications
11/19/04       This report included recommendations that TVA management take action to improve the
               security of the servers. TVA management is expected to complete planned remediation actions
               by September 30, 2006.


2005-001T      Vulnerability Assessment on Solaris Standard Image
11/19/04       This report included recommendations to strengthen controls within the standard solaris image.
               TVA management is expected to complete remediation by December 31, 2005.




page 43                                                                   April 1 ~ September 30, 2005
                                                         Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys              6
          Subjects Referred to State/Local Authorities     2


Results

          Subjects Indicted                                4
          Subjects Convicted                               5
          Referrals Declined                               6
          Other (Pretrial Diversion)                       1




* These numbers include task force activities.




TVA Office of the Inspector General                            page 44
Highlights



                                               SEPT 30,    MAR 31,    SEPT 30,        MAR 31,     SEPT 30,
                                                 2005       2005        2004           2004         2003


ANNUAL BUDGET (In Millions of Dollars)           $9.1        $9.1       $8.8            $8.8        $8.5
CURRENT STAFFING                                  85          80         82              78          78

AUDITS

AUDITS IN PROGRESS
Carried Forward                                    30         28         29              37           38
Started                                            41         35         38              36           41
Canceled                                          (11)         (2)        (5)             (5)          (8)
Completed                                         (29)       (31)       (34)            (39)         (34)
In Progress at End of Reporting Period             31         30         28              29           37

AUDIT RESULTS (Thousands)
Questioned Costs                               $6,422      $8,859     $1,763         $14,127      $1,908
Disallowed by TVA                               4,969       7,586      2,948          10,453         137
Recovered by TVA                                5,016*      2,312      1,113             697       3,499

Funds to Be Put to Better Use                  $5,634     $24,306     $1,471         $11,904      $6,951
Agreed to by TVA                                1,251      20,181      7,021           5,800       6,551
Realized by TVA                                 6,002       7,886      7,196          11,708           0

OTHER AUDIT-RELATED PROJECTS
Completed                                          10          3           8             30           15
Cost Savings Identified/Realized (Thousands)       $0         $0          $0              0            0

I N V E S T I G AT I O N S * *

INVESTIGATION CASELOAD
Opened                                            84          84        118             162         100
Closed                                            84         103        163              76          92
In Progress at End of Reporting Period           157         157        176             221         135

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                     $1,880.3      $216.3    $460           $3,412       $100
Savings                                            36       1,581.5     447.7            863        875
Fines/Penalties                                     6.7          .4     451.6             10        421

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                           10         11          14              8           21
Actions Taken (# of Subjects)                      13         16          30             75           24
Counseling/Management
   Techniques Employed (# of Cases)                16         12          16             13           21

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                            8         12          25             17           63
Indicted                                            4          3           9              3            4
Convicted                                           5          4           3              3           10

INSPECTIONS
Completed                                      13             14          8
Cost Savings Identified/Realized (Thousands) $118             $0       $226

 * Includes excess funds recovered by TVA of $33,219.
** These numbers include task force activities.




page 45                                                                          April 1 ~ September 30, 2005
OIG LEADERSHIP PHILOSOPHY
        The TVA OIG strives to be a high performing
        organization made up of dedicated individuals
        who are empowered, motivated, competent, and
        committed to producing high quality work that
        improves TVA and life in the Valley.

        Each of us has important leadership,
        management, team, and technical roles.

        We value integrity, people, open communication,
        expansion of knowledge and skills, creative
        problem solving and collaborative
        decisionmaking.
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
